HHS/OIG, Audit -"Review of Outpatient Cardiac Rehabilitation Services - Central Florida Regional Hospital, Sanford, Florida,"(A-04-03-01005)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Cardiac Rehabilitation Services - Central Florida Regional Hospital, Sanford, Florida," (A-04-03-01005)
November 3, 2003
Complete
Text of Report is available in PDF format (393 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare properly reimbursed Central Florida Regional Hospital for
outpatient cardiac rehabilitation services.  We found that the hospital did not designate a physician to supervise the
services provided through its cardiac rehabilitation program.  In addition, we could not identify the physician professional services
to which the cardiac rehabilitation services were provided incident to.  From our claims review for 30 sampled beneficiaries who received outpatient cardiac rehabilitation
services during calendar year 2001, we determined that the hospital received Medicare payments of $2,003 for services provided
to beneficiaries where medical documentation may not have supported Medicare covered diagnoses and for services not otherwise
allowable.  We recommended that the hospital:  (1) work with its fiscal intermediary to ensure that its outpatient
cardiac rehabilitation program is being conducted in accordance with the Medicare coverage requirements for direct physician
supervision and for services provided incident to a physicians professional service; (2) work with its fiscal intermediary
to establish the amount of repayment liability for services provided to beneficiaries where medical documentation may not
have supported Medicare covered diagnoses and for services not otherwise allowable; and (3) implement controls to ensure
sessions billed to Medicare do not exceed limits.